CREDIT CARD AGREEMENT AND DISCLOSURE STATEMENT
®

FOR YOUR TDECU MASTERCARD
FAMILY ACCOUNT

Notice: Read and retain this copy of your Credit Card Agreement and Disclosure Statement for future reference.
TERMS USED IN THIS AGREEMENT: This Agreement and Disclosure Statement (“Agreement”) covers your
®
MasterCard Family Account (“Account’). In this Agreement “You” and “Your” mean any person who signs Family
Account Application or uses the Card. “Key Account Holder” means the Account Applicant as set forth in the Application.
“We,” “our,” and “us’ means Texas Dow Employees Credit Union, the issuer of your MasterCard. The “Card” means any
credit card issued to you or those designated by you under the terms of this Agreement. “Use of the Card” means any
procedure used by you, or someone authorized by you, to make a purchase or an advance whether or not the purchase or
advance is evidenced by a signed written document. “Unauthorized use of the Card” means the use of the Card by someone
other than you who does not have actual, implied, or apparent authority for such use, and from which you receive no
benefit. In this Agreement, any plural terms shall be deemed singular and any singular terms shall be deemed plural when
context and construction so require.
MASTERCARD FAMILY ACCOUNT: This Agreement covers your MasterCard Family Account and supersedes any
previous Agreement and Disclosure Statement that may have been previously provided to you in connection with your
Account. This Account is either the primary MasterCard Family Account (the “Key Account”) or an additional MasterCard
Family account on which the Key Account Holder is an obligor (a “Dependent Account”). All of the Key Account
Holder’s MasterCard Family accounts are linked by us which allows the Key Account Holder to receive statement
information for all accounts, monitor account activity, and set Dependent Account credit limits within limits established by
us. Each statement period, we will send the Key Account Holder a group periodic statement covering the activity for this
Account and all other linked accounts. If this Account is designated as a “Parent Pay” Account, then the Key Account
Holder will receive the official periodic statement for the Key Account and each Dependent Account, which includes all
activity for each Dependent Account, and will be responsible for remitting payments. The Key Account Holder may
designate that a separate courtesy Account statement be sent to certain other Parent Pay Dependent Account cardholders. If
this Account is designated as a “Dependent Pay” Account, then we will send the official periodic statement to the Joint
Applicant (or, if there is more than one Joint Applicant, to the Joint Applicant designated by the Key Account Holder) and
the designated Joint Applicant will be responsible for remitting payments. In such event, the Key Account Holder’s
periodic statement will only include Account balance, status, and payment information for the Dependent Pay Account.
Regardless of whether the Key Account Holder designates this Account as a Parent Pay or a Dependent Pay Account, you
agree that the cardholder to whom we send the official periodic statement for this Account is the person responsible for
remitting this Account’s required payment to us by the “Payment Due Date” shown on the official periodic statement.
Each Joint Applicant, however, is liable to us for all charges made to the Account. If this is a Joint Account, please refer to
the Joint Applicant Liability section below.
CONSENSUAL SECURITY INTEREST: You agree to give the Credit Union a security interest in any and all funds
on deposit in accounts in which you have an ownership interest, both now and in the future, with the exception of
retirement accounts or any other accounts that would lose special tax treatment under state or federal law if given as
security. The granting of this security interest is a condition for the issuance of any Card that you may use, directly and
indirectly, to obtain extensions of credit under this Agreement. This means that, if you are in default, the Credit Union
can, without prior notice to you, take funds from any eligible account(s) in which you have an ownership interest and
apply them as a credit against your credit card Account in any amount available up to the entire balance. Collateral
securing other loans you have with the Credit Union may also secure this loan.
EXTENSION OF CREDIT: The Credit Union has established a MasterCard Account in your name and one or more
Cards will be issued to you or to those designated by you. By use of the Card or the Account you authorize the Credit
Union to pay for your Account all items reflecting credit purchases and cash advances (including balance transfers).

1

JOINT APPLICANT LIABILITY: If more than one person signs the application, then notwithstanding any provision of
this Agreement designating responsibility to one cardholder for remitting payments each of you shall be jointly and
individually liable to us for all charges made to the Account, including applicable fees. In addition, you agree that each of
you designates the other as agent for the purpose of making purchases extended under this Agreement and each use of your
Account shall be an extension of credit to all. Notice to one of you shall constitute notice to all. Any cardholder may close
the Account at any time by notifying us in writing. However, removal from the Account does not release you from any
liability already incurred.
CARD SIGNATURE PANEL: Upon receipt of your new or reissued Card, you must sign the signature panel on the back
of the Card. If the signature panel is not signed, merchants are not required to accept your Card.
OTHERS USING YOUR ACCOUNT: If you allow anyone else to use your Account, you will be liable for all credit
extended to such persons. You promise to pay for all purchases, balance transfers, and cash advances made by anyone you
authorize to use your Account, whether or not you notify us that he or she will be using it. If someone else is authorized to
use your Account and you want to end that person’s privilege, you must notify us in writing, and if he or she has a Card,
you must return the Card with your written notice for it to be effective.
LIABILITY FOR UNAUTHORIZED USE: You may be liable for the unauthorized use of your Card. If you notice the
loss or theft of your Card or a possible unauthorized use of your Card, you should call us immediately at:
(877) 404-1009
You may also write us at:
Vantiv
P O Box 815909
Dallas, Texas 75381-5909
Although you may write to notify us of unauthorized use, calling us immediately at the telephone number above is the best
way to keep your possible losses down.
You are not liable for any unauthorized use of your MasterCard once you notify us orally or in writing and as long as you
meet the following criteria: (1) you have exercised reasonable care with your Card; (2) you have not reported two or more
incidents of unauthorized use of your Card within the previous 12 months; and (3) you have maintained your Account in
good standing. MasterCard’s zero liability policy does not apply to cash advances obtained at an ATM.
CREDIT LIMITS: The Credit Union will establish a line of credit for you and notify you of its amount when the Card is
sent to you. You promise that payments we make for your Account resulting from use of the Card will at no time cause the
outstanding balance of your Account to exceed your credit limit as established by us or as adjusted from time to time at our
discretion. Notwithstanding the foregoing, in our discretion we may choose to approve a transaction you have requested
that would cause you to exceed your approved credit limit and you will be responsible for such transactions. Each payment
you make on the Account will restore your credit limit by that amount of the payment which is applied to the principal
balance of purchases and cash advances. The Credit union has the right to reduce or terminate your credit limit at any time.
PROMISE TO PAY: You promise to pay us in U.S. dollars for (a) all purchases, cash advances, and balance transfers
made by you or anyone whom you authorize to use the Card or Account; (b) INTEREST CHARGES and other charges or
fees; (c) collection costs and attorney’s fees as permitted by applicable law, and any costs incurred in the recovery of the
Card; and (d) credit in excess of your credit limit that we may extend to you. At the end of each monthly billing cycle for
which you have a balance on your Account, you will be furnished with a periodic statement showing (i) the “Previous
Balance” (the outstanding balance in the Account at the beginning of the billing cycle), (ii) the amount of all cash
advances, purchases, balance transfers, Late Charges, INTEREST CHARGES, and other charges or fees posted to your
Account during the billing cycle, (iii) the amount of all payments and credits posted to your Account during the billing
cycle, and (iv) the “new Balance” which is the sum of (i) and (ii) minus (iii).
You agree to pay on or before the ‘Payment Due Date’ shown on the monthly periodic statement the entire New Balance or
a Minimum Payment equal to 2% of the new balance or $18, whichever is greater, plus any amount in excess of the credit
limit established by us. If the New Balance is $18 or less, you agree to pay it in full. You may make extra payments in
advance of the due date without a penalty, and you may repay any funds advanced, credit extended, or amount outstanding
at any time without a penalty for early payment. Regardless of the amount of any extra payment during a given month, a
monthly payment will be required the following month if a balance remains on your Account.

2

CREDIT INSURANCE: Credit insurance is not required for any extension of credit under the Agreement. However, if
available, you may purchase credit insurance through the Credit Union and have the premium added to the outstanding
balance in your account. If you elect to do so, you will be given the necessary disclosures and documents separately.
TERMINATION OR CHANGES: The Credit Union may add to, delete, or change the terms of this Agreement from
time to time. Notice of any change will be given in accordance with applicable law. If permitted by law and specified in the
notice to you, the change will apply to your existing Account balance as well as to future transactions. Either you or the
Credit Union may terminate this Agreement at any time, but termination by you or the Credit Union will not affect your
obligation to pay the Account balance plus any INTEREST CHARGES and other charges you owe under this Agreement.
You are also responsible for all transactions made to your Account after termination, unless the transactions were
unauthorized. The Cards and convenience checks you receive remain the property of the Credit Union and you must
surrender to the Credit Union all Cards and convenience checks upon request or upon termination of this Agreement
whether by you or the Credit Union.
DEFAULT: You will be in default: (1) if you fail to make any payment an time; (2) if you fail to keep any promises you
have made under this or any other agreement with the Credit Union; (3) if you are the subject of an order for relief under
Title 11 of the U.S. Code (Bankruptcy); (4) if anyone tries, by legal process, to take any of your money in the Credit Union
(5) if you have given the Credit Union false or inaccurate information in obtaining your Card; or (6) if anything happens or
any condition exists which the Credit Union reasonably believes impairs your ability to repay what you owe.
ACCELERATION: If you are in default, the Credit Union may, without prior notice to you, call any amounts you still
owe immediately due and payable plus INTEREST CHARGES which shall continue to accrue until the entire amount is
paid. We may also in our discretion transfer the balance of an account in default to another linked account of yours. You
expressly waive any right to notice or demand, including but not limited to, demand upon default, notice of intention to
accelerate and notice of acceleration. The card remains the property of the Credit Union at all times and you agree to
immediately surrender the Card upon demand of the Credit Union. You agree to pay all reasonable costs of collection,
including court costs and attorneys fees imposed, and any cost incurred in the recovery of the Card.
COST OF CREDIT: You will pay an INTEREST CHARGE for all advances made against your Account. If your
Account features an Introductory Rate, you will pay an Introductory Rate for all advances made against your Account at
the Daily Periodic Rate and corresponding ANNUAL PERCENTAGE RATE (“APR”) set forth in the Additional
Disclosure attached and incorporated into this Agreement. Any Introductory Rate applicable to your Account will apply for
the time period as set forth in the Additional Disclosure. After any Introductory Rate period, or if an Introductory Rate does
not apply to your Account, the Standard Rate for your Account will range from .0218904% per day to .0492877% per day
for MasterCard, which corresponds to an ANNUAL PERCENTAGE RATE ranging from 7.99% to 17.99%. Your precise
Standard Rate will be determined by review of your credit report and based on your credit worthiness and is disclosed in
the Additional Disclosure. In addition, after your Account is opened, we may review your credit report periodically from
time to time at our discretion and adjust your Standard Rate within the ranges above according to your credit score. You
will be notified no less than 45 days prior to any rate change. Cash advances (including balance transfers) incur an
INTEREST CHARGE from the date they are posted to the Account. If you have paid your account in full by the due date
shown on the previous monthly statement, or there is no previous balance, you have not less than 25 days to repay your
Account balance before an INTEREST CHARGE on the current purchases will be imposed. If you have not paid your
Account in full by the due date shown on the previous monthly statement, you have no grace period in which to repay your
Account balance before an INTEREST CHARGE on current purchases will be imposed, and such INTEREST
CHARGE will begin on the date such purchases are posted to your Account. No additional INTEREST CHARGE will
be incurred whenever you pay the Account in full by the Payment Due Date shown on your monthly periodic statement.
The INTEREST CHARGE is figured by applying the periodic rate to the “balance subject to INTEREST CHARGE”
which is the “average daily balance” of your Account, including certain current transactions. The “average daily balance”
is arrived at by taking the beginning balance of your Account each day and adding any new cash advances (including
balance transfers), and, unless you pay your account in full by the due date shown on your previous monthly statement or
there is no previous balance, adding in new purchases, and subtracting any payments or credits and unpaid INTEREST
CHARGES. The daily balances for the billing cycle are then added together and divided by the number of days in the
billing cycle. The result is the “average daily balance.” The INTEREST CHARGE is determined by multiplying the
“average daily balance” by the number of days in the billing cycle and applying the periodic rate to the product. The
INTEREST CHARGE for certain categories of transactions subject to an introductory rate or a promotional rate may be
separately calculated for those category balances. You may pay any amounts outstanding at any time without penalty for
early payment.

3

ACCOUNTS WITH DIFFERENT APRs: Payments made in excess of the required minimum payment will be applied to
the balance with the highest APR before any such excess payments are applied to balances with lower APRs.
CASH ADVANCE FEE: We will not charge you a cash advance fee. If an advance is made by another institution, the
other institution may impose a fee. If you obtain a cash advance by using an automated teller machine (ATM), any fee
imposed upon the Credit Union by the owner or operator of the machine may be passed on to you. Any charge made under
this paragraph will be added to the balance of your Account and treated as a cash advance.
ANNUAL FEE: You will not be charged an annual fee for the issuance or use of the Card.
LATE PAYMENT FEE: If we do not receive your required minimum payment within 10 days of the payment due date,
you will be charged a late payment fee as set forth in the Additional Disclosure. In no event will the late payment fee
exceed the amount of the minimum payment due for the applicable statement period.
RETURNED PAYMENT FEE: We will charge you a returned payment fee each time you send us a payment that is
returned unpaid for any reason. We will charge you a returned payment fee each time any payment is returned unpaid, even
if it is paid upon resubmission. The amount of the returned payment fee is set forth in the Additional Disclosure. In no
event will the returned payment fee exceed the amount of the minimum payment due for the applicable statement period.
OVER-THE-CREDIT-LIMIT FEE: You will not be charged an Over the Credit Limit Fee when using your Card.
BALANCE TRANSFER FEE: You will not be charged a Balance Transfer Fee.
FEDEX FEE FOR EXPEDITING LOST, STOLEN, OR ADDITIONAL CARD: We will charge you a fee for the
FedEx delivery of your card as set forth in the Additional Disclosure.
TELEPHONE PAYMENT THROUGH TDECU: If you make a telephone request to make a payment within 24 hours
of payment due date, we will charge a Telephone Payment fee as set forth in the Additional Disclosure.
CREDITING OF PAYMENTS: All payments made on your Account at (i) the address designated for payment on the
monthly periodic statement, (ii) through the gotomycard.com website, and (iii) made to a member service representative at
any of our branch offices will be credited to your Account on the date of receipt. If the date of receipt for a mailed payment
or a payment made at a branch drop box is not a business day, your payment will be credited on the first business day
following receipt. The required minimum payment for your Account will be applied first to collection costs, then to any
INTEREST CHARGES and other fees due, and then to the unpaid principal balance. Interest paid or agreed to be paid
shall not exceed the maximum amount permissible under applicable law, and in any contingency whatsoever, if we shall
receive anything of value deemed interest under applicable law which would exceed the maximum amount of interest
permissible under applicable law, the excessive interest shall be applied to the reduction of the unpaid principal amount or
refunded to you.
The official periodic statement we send to the Key Account Holder will reflect separate and a combined minimum payment
for the Key Account and all linked Parent Pay Dependent Accounts. The Key Account Holder may remit separate
payments for the Key Account and each Parent Pay Dependent Account or combine payment for the Accounts. If a
payment sent to our physical payment address is combined, then the combined payment will be allocated among the linked
Key Account and Parent Pay Dependent Accounts as follows, unless you tell us otherwise in a manner approved by us
when you send the payment: Payment will first be applied to pay any delinquent amount due on the Key Account or Parent
Pay Dependent Accounts. We will then apply any remaining amount to pay the remaining required minimum payment for
the Key Account and each Parent Pay Dependent Account. Any remaining excess amount will be applied to the Key
Account and Parent Pay Dependent Accounts according to each Account’s balance as a percentage of the Parent Pay
Family Account group’s aggregate balance. If an unspecified combined payment is not adequate to pay the required
minimum payment for the Key Account and each Parent Pay Dependent Account, then the payment may be applied among
the Key Account and Parent Pay Dependent Accounts in our discretion. Payments made by way of the GoToMyCard.com
web site or by way of any other automated means will be applied entirely to the Account associated with the payment. You
acknowledge and agree that, if you make payments electronically or by way of another automated means, you must make
separate payments of at least the Minimum Payment due for the Key Account and each Parent Pay Dependent Account in
order to satisfy your payment obligations under this Agreement and any other Parent Pay Dependent Account card
agreement you have with us.
BALANCE TRANSFERS: If you request a balance transfer to be made, you should not rely on a balance transfer to be
made by any particular date. Although most balance transfers will be made sooner, it could take up to three weeks before
payment to your other account is made. Accordingly, you should continue to make all required payments on your other

4

Accounts until you confirm that the balance transfer has been made. Balance transfers may not exceed your available
credit. Balance transfer requests will be processed in the order you list them on the balance transfer request form or
additional sheet if included. If a balance transfer request is more than the available credit limit, we will automatically lower
the balance transfer amount to your available credit and complete the transfer. We will not close your other accounts, even
if you transfer the entire balance. Balance transfer cannot be used to pay towards TDECU credit card or loan balances. If
you want to close your other accounts, you should contact the issuer directly. Transfer of a balance that contains disputed
purchases or other charges may cause you to lose any dispute rights you may have with regard to those purchases or other
charges. There is no grace period for balance transfers.
CREDIT INVESTIGATION: In conjunction with your application for credit and, if approved, maintenance of your
Account, you agree that we have the right to investigate your credit and employment history, to verify your credit
references, to request and use credit reports, and to report the way you pay your Account to credit bureaus and other
interested parties. We may report the status and payment history of your Account to the credit reporting agencies each
month. You are hereby notified that a negative credit report reflecting on your credit record may be submitted to a credit
reporting agency if you fail to fulfill the terms of this Agreement. If you believe that the information we have reported
is inaccurate or incomplete, please notify us in writing at Texas Dow Employees Credit Union, 1001 FM 2004, Lake
Jackson, TX 77566-4012. Please include your name, address, home telephone number, and Account number.
CONVENIENCE CHECKS: The Credit Union may issue checks at our discretion that may be used for any purpose other
than making payment for credit to your Account. By signing such checks, you authorize us to pay the item for the amount
indicated and post such amount as a cash advance to your Account. We do not have to pay any item that would cause the
outstanding balance in your Account to exceed your credit limit.
ILLEGAL TRANSACTIONS: You may not use your Card or Account for any illegal purpose or unlawful transactions.
You agree that we may decline to process any transaction that we believe in good faith to be for an illegal purpose. You
agree that we will not be liable for declining to process any such transaction. If we do process any transaction that
ultimately is determined to have been for an illegal purpose, you agree that you will remain liable to us under this
Agreement for any such transaction notwithstanding its illegal nature. You agree that any illegal use of the Card will be
deemed an act of default under this Agreement. You further agree to waive any right to take legal action against us for your
illegal use of the Card and to indemnify, defend, and hold us and MasterCard International, Inc. harmless from and against
any lawsuits, other legal action, or liability that results directly or indirectly from such illegal use.
FOREIGN TRANSACTIONS: If you effect a foreign transaction with your MasterCard, MasterCard International will
convert the charge into a U.S. dollar amount. MasterCard International will use its currency conversion procedure, which is
disclosed to institutions that issue MasterCard cards. Currently, the currency conversion rate used by MasterCard
International to determine the transaction amount in U.S. dollars for such transactions is generally either a governmentmandated exchange rate or a wholesale exchange rate selected by MasterCard International for the applicable currency on
the day the transaction is processed, which rate may differ from the applicable rate on the date the transaction occurred or
when the transaction is posted to your Account.
ADDITIONAL PROVISIONS: Each provision of this Agreement must be considered part of the total Agreement and
cannot in any way be severed from it. However, if any provision of this Agreement is finally determined to be void or
unenforceable under any law, rule, or regulation, all other provisions of this Agreement will remain valid and enforceable.
You understand that the validity, construction, and enforcement of this Agreement is governed by the laws of the State of
Texas to the extent not preempted by applicable federal law, and it is performable in Brazoria County, Texas. We do not
warrant any merchandise or services purchased by you with the Card. All purchases and cash advances are extended at the
option of the merchant or cash advancing financial institution and the Credit Union is not responsible for the refusal of any
merchant or financial institution to honor your Card. The Card remains our property at all times and you agree to
immediately surrender the Card upon demand. You agree to pay all reasonable costs of collection, including court costs
and attorneys fees, and any costs incurred in the recovery of the Card. We can accept late payments or partial payments, or
checks or money orders marked “payment in full” without losing any of our rights under this Agreement. We can also
waive or delay enforcing any of our rights under this Agreement without losing them. You expressly waive presentment for
payment, demand, protest, and notice of protest and dishonor of same. You agree to give us prompt notice of any change in
your name, mailing address, telephone number or place of employment.
RECEIPT OF AND AGREEMENT TO TERMS AND CONDITIONS OF AGREEMENT: By signing an application
for the Card or by using the Card, you agree to all the terms and conditions and promise to perform all the obligations,
requirements, and duties contained in this Agreement, and you acknowledge receipt of a copy of this Agreement.
INTEREST RATES AND INTEREST CHARGES

Annual Percentage Rate
5 (APR) for Purchases

0% Introductory APR on all purchases for six months. *
After that, the Standard APR will range from

7.99% to 17.99%, based on your creditworthiness

APR for Balance Transfers

0% introductory APR for twelve months.**
After that, the Standard APR will range from
7.99% to 17.99%, based on your creditworthiness

APR for Cash Advances

0% introductory APR for six months
After that, the Standard APR will range from
7.99% to 17.99%, based on your creditworthiness

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing
cycle. We will not charge you interest on purchases if you pay
your entire balance by the due date each month.

For Credit Card Tips
To learn more about factors to consider when applying for or
From the Consumer
using a credit card, visit the website of the Consumer Financial Protection
Financial Protection Bureau at http://www.consumerfinance.gov/learnmore
FEES

Annual Fee

None

Penalty Fees
 Late Payment
 Returned Payment

Up to $25
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
*Introductory rate good until the first day of the billing cycle that includes the six month anniversary date of the opening of your
account
**Offer only applies to balance transfer requests received by us within 30 business days of account opening.
Federally insured by NCUA.

6

